                          State of the Mail




                              April 27, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-010
U.S. Postal Service Office of Inspector General                                                                                                                                April 27, 2012
State of the Mail                                                                                                                                                           RARC-WP-12-010



                                        State of the Mail


                                       Executive Summary

Mail binds the nation together. Mail disseminates educational, cultural, scientific, and
informational content. Mail moves goods and services and is a key element in the flow
of financial payments. Mail powers an economic engine sustaining over a $1 trillion
industry employing more than 8 million Americans. Mail has a historic and celebrated
past. Mail delivery to every household has been a key facet of American life. Mail is
important. Unfortunately the U.S. Postal Service is under an unprecedented state of
financial stress caused by three major economic phenomena: the Great Diversion, the
Great Recession, and the lethargic economic recovery known as the Great Slump. This
State of the Mail paper is a strategic assessment of the mail today. To this end, it
assesses the outlook in different mail markets and discusses these economic
phenomena.                                                            Outlook Level
                                                                                    Promising                                                   Neutral                                           Challenged
Our strategic assessment finds that a




                                                                                                                 Two- and Three-Day Packages
dichotomy of prospects exists for most postal




                                                                                                                                               Overnight Flats & Packages
market segments. Despite the major strategic                   Mail




                                                                                                                                                                                               FCM Correspondence
challenges facing the Postal Service today, a                Segments




                                                                                                                                                                                                                    FCM Transactions
                                                                                                                                                                             Ground Packages
core set of business segments have                             (FY 2010
                                                                             FCM Advertising

                                                                                               STD Advertising
                                                               millions)
encouraging prospects for prosperous




                                                                                                                                                                                                                                       Periodicals
growth. Direct mail advertising [in First-Class
Mail (FCM) and Standard Mail (STD)] and
two-and three-day package services exploit
strategically important core competencies of                Volume              89,141      1,383      57,773
                                                                % Volume             52%       1%           34%
the Postal Service, while benefiting from                                       24,468      2,926      23,557
                                                            Revenue
growth in eCommerce. These segments                           % Revenue              37%       4%           35%
account for slightly more than half of mail                 Contribution         8,433       332       10,477
volume, 37 percent of revenue and one-third                 % Contribution           33%       1%           41%
of the contribution to institutional costs.                 Source: OIG Analysis. Excludes Other mail.



          Percent Contribution
                                                  In contrast to these promising business segments,
           Per Revenue Dollar                     three postal business segments face strong
                                                  headwinds. Although correspondence and
 FCM Advertising                      66%         transactions mail and Periodicals are valued by
 FCM Transactions                     52%         postal customers, they are losing ground to
 Overnight Flats & Packages           40%         formidable challenges in the marketplace.
 FCM Correspondence                   39%         Electronic diversion and long-term secular
 STD Advertising                      34%
                                                  downward trends continue to eat away at these
 Two- and Three-Day Packages          21%
                                                  segments which account for 34 percent of total
 Ground Packages                     -18%
                                                  volume, 35 percent of total revenue, and
 Periodicals                         -33%
                                                  41 percent of total contribution. This challenging
Source: OIG Analysis



                                                        i
U.S. Postal Service Office of Inspector General                                 April 27, 2012
State of the Mail                                                            RARC-WP-12-010


environment does not mean that this mail is not valued by consumers or that it will
necessarily disappear entirely, but rather that managing its decline will require
increased management attention. The best solution may be a fundamental shift in
business strategy, such as changes to pricing policy, adding new service offerings, or
expanding into digital postal alternatives.

The paper continues with a discussion of a movement in corporate culture away from
increasing market share and volume toward one of meeting customer needs in a
financially sustainable way. The Postal Service could identify, manage, and market
separate mail products with unique cost, contribution, and market characteristics. For
example, transactions and correspondence, which are losing volume to digital
substitutes, offer the second and fourth highest contribution margins, respectively. It will
be a challenge to reenergize and offset losses from these mail segments. Managing in a
financially sustainable way requires leveraging product strengths, identifying and
exploiting new business opportunities, and at the same time, mitigating the adverse
impact of technological change and secular downward trends.

                                              Key Findings

We have assessed the state of the mail and offer ten key findings.

1. A strong, rapid mail volume recovery is not likely. Policy makers should not count on
   the Postal Service to grow its way out of its current problems.

2. A change in public policy and corporate culture that emphasizes contribution (the
   amount of revenue over and above the cost) over other concerns, such as volume
   growth, is crucial.

3. Today’s declining volume and shifting mail mix generate less contribution and are
   more sensitive to business cycle fluctuations than in years past. Public and
   management policy changes must factor this into account.

4. Declines in contribution per delivery point were traditionally modest until 2006. The
   steep decline that followed in product contribution per delivery point is
   unprecedented, but may represent the new reality, one that requires new solutions
   to align cost and revenue.

5. Remedies for the decline in contribution per delivery point are limited. To date, cost
   reduction measures, price decreases to stimulate sales, promotions to spur growth
   in existing products, and the introduction of new products have been inadequate to
   address the decline.

6. Price increases remain an option. The growth of the Internet as a competing
   technology adds complexity to this policy choice. A careful analysis of the Internet’s
   effect on the demand for mail indicates that volume is shifting to the Internet
   because it is a cost effective substitute, but the pace of diversion does not appear to
   be sensitive to postal price changes.



                                                   ii
U.S. Postal Service Office of Inspector General                                   April 27, 2012
State of the Mail                                                              RARC-WP-12-010


7. Historically, price increases have added to Postal Service net revenue. A series of
   moderate and predictable price increases, to the extent that market conditions allow
   them, would likely increase the revenue to the Postal Service, and could reduce or
   eliminate losses from products that are not currently covering costs.

8. The Postal Service is becoming increasingly dependent on advertising. Direct mail
   advertising is more sensitive to business cycle fluctuations. Therefore, greater
   resource flexibility will be needed in the future.

9. Increased dependency on direct mail advertising also weakens the imperative of the
   Universal Service requirement. Additional hard-copy and digital products and
   services that diversify the Postal Service’s mail mix, beyond advertising, and that
   bind the nation together, are needed to secure the role of the Postal Service as a
   vital, national infrastructure.

10. Care must be taken that price increases do not further reduce the richness of the
    mail mix, especially with regard to mail that is highly desirable to recipients, and that
    is strongly connected to the Postal Service mission of “binding the nation together.”




                                                  iii
U.S. Postal Service Office of Inspector General                                                                   April 27, 2012
State of the Mail                                                                                              RARC-WP-12-010




                                                 Table of Contents

Introduction ..................................................................................................................... 1 

The Mail Today ............................................................................................................... 1 

Three Major Trends ......................................................................................................... 6 
          The Great Diversion ............................................................................................. 7 
                    First-Class Mail .......................................................................................... 8 
                    Informational Products ............................................................................. 11 
                    Direct Mail Advertising ............................................................................. 12 
                    Packages ................................................................................................. 13 
          The Great Recession .......................................................................................... 13 
          The Great Slump ................................................................................................ 18 

Managing for Financial Sustainability ............................................................................ 19 
          A New Corporate Culture ................................................................................... 19 
          Delivery Points.................................................................................................... 20 
          Contribution Weighted Volume Index ................................................................. 22 
          Pricing, Contribution, and Customers ................................................................. 23 

Conclusion .................................................................................................................... 24 




                                                      Appendices

Appendix A              Mail Market Definitions ........................................................................ 26 

Appendix B              Outlook Assessments by Mail Segment .............................................. 32 




                                                                 iv
U.S. Postal Service Office of Inspector General                                                               April 27, 2012
State of the Mail                                                                                          RARC-WP-12-010




                                                       Tables

Table 1             The Mail Today – FY 2010 Data by Mail Segment
                    (millions) ................................................................................................ 2 

Table 2             The Mail Tomorrow – Mail Segments .................................................... 5 

Table 3             Mail Segments by Outlook, FY 2010 ..................................................... 6 

Table 4             Mail Segments by Contribution Margin ................................................ 20 


                                                       Figures

Figure 1            The Mail Today – FY 2010 Volume by Mail Segment
                    (171 billion) ............................................................................................ 3 

Figure 2            The Mail Today – FY 2010 Revenue by Mail Segment
                    ($66 billion) ............................................................................................ 3 

Figure 3            The Mail Today – FY 2010 Contribution by Mail Segment
                    ($25 billion) ............................................................................................ 4 

Figure 4            Real Gross Domestic Product and First-Class Mail
                    Volume (Indexed to 1973) ..................................................................... 7 

Figure 5            Annual Growth in Electronic Personal Income Tax
                    Returns and Refunds ............................................................................. 9 

Figure 6            Direct Mail as a Share of Total Advertising Spending.......................... 12 

Figure 7            Month to Month Change in Nonfarm Employment,
                    CY 1989 – CY 2011............................................................................. 14 

Figure 8            Number of Accounts by Loan Type, CY 1999 – CY 2011 .................... 15 

Figure 9            Year over Year Growth in Real GDP, and First-Class Mail
                    and Standard Mail Volumes ................................................................ 16 

Figure 10           Delivery Points, FY 2000 – FY 2010.................................................... 21 

Figure 11           Annual Product Contribution per Delivery Point in
                    Constant 2010 Dollars ......................................................................... 21 

Figure 12           Annual Contribution-Weighted Volume Index ...................................... 22


                                                             v
U.S. Postal Service Office of Inspector General                                                           April 27, 2012
State of the Mail                                                                                      RARC-WP-12-010


                                             State of the Mail


Introduction
People spend time engaged with the mail to share opinions, make decisions about new
products, manage their households, donate to their favorite charities, and manage their
finances. These mail moments1 remain valuable to senders and recipients alike. This
State of the Mail paper is a strategic assessment of the mail today. To this end, it
examines descriptive statistics and assesses prospects for each mail market. It then
discusses selected trends that are affecting the mail. These are the three economic
phenomena which we call the Great Diversion, the Great Recession, and the Great
Slump. The paper continues with a discussion about the need for a change in corporate
culture to one of managing for financial sustainability.


The Mail Today
Table 1 presents eight mail segments2 based on six mail products3 that customers use
in five mail markets.4 These eight mail segments account for the majority of the mail
today. Table 1 also includes the estimated fiscal year (FY) 2010 volume, revenue, and
contribution5 for each mail segment.

In FY 2010, First-Class Mail (FCM) and Standard Mail (STD) were the two largest mail
products accounting for over 94 percent of volume. First-Class Mail operates in 4 of the
5 mail markets, that is, correspondence, transactions, advertising, and packages. The
domestic First-Class Mail sent and received by households in these mail markets
accounted for 33 percent of total mail volume, 37 percent of
                                                                  Although Standard
total revenue, and 46 percent of total contribution.6 The
                                                                  Mail accounted for the
Standard Mail received by households in the advertising and       majority of volume,
packages mail markets accounted for 48 percent of total mail      First-Class Mail added
volume, 26 percent of total revenue, and 21 percent of total      more contribution to
contribution.7 Although Standard accounted for the majority of    the Postal Service’s
volume, First-Class Mail added more contribution to the           bottom line.
Postal Service’s bottom line.


1
  The mail moment is the unique time when consumers bring mail into their home, sort, review, and act on it.
2
  The eight mail segments are First-Class Correspondence, First-Class Transactions, First-Class Advertising,
Standard Mail Advertising, Periodicals, Two- & Three-Day Packages, Overnight Flats and Packages, and Ground
Packages. Appendix A contains the definitions of the mail segments, including per unit contribution and contribution
per revenue dollar by segment.
3
  These are official Postal Service classifications of First-Class Mail, Priority Mail, Express Mail, Periodicals, Standard
Mail, and Package Services.
4
  The five mail markets are correspondence, transactions, advertising, periodicals, and packages.
5
  Contribution is product revenue minus costs attributed to a product. The Postal Service could lose money in total
and still have positive product contribution.
6
  These sums include only the portion of Two- & Three-Day packages that are First-Class Mail.
7
  These sums include only the portion of Ground packages that are Standard Mail.


                                                             1
U.S. Postal Service Office of Inspector General                                                                         April 27, 2012
State of the Mail                                                                                                    RARC-WP-12-010


Advertising was the largest mail market and included First-Class Mail and Standard.
Advertising accounted for 52 percent of total volume, 31 percent of total revenue, and
28 percent of total contribution. In contrast, the Packages mail market was smaller and
included First-Class Mail, Priority Mail, Express Mail (flats and packages), Standard,
and Package Services. Packages accounted for 1 percent of total mail volume,
14 percent of total revenue, and 7 percent of total contribution.

                                Table 1: The Mail Today – FY 2010 Data by Mail Segment (millions)8
                                                                         Six Mail Products
                        Eight Mail       First-Class      Priority       Express         Periodicals     Standard         Package
                                             Mail          Mail            Mail                            Mail           Services
                        Segments

                                           Volume:
                                            14,583

                                           Revenue:

                        Correspondence     $6,506                                        Mail Segments are 
                                                                                         the intersections 
                                         Contribution:                                    of Mail Products 
                                           $2,539                                        and Mail Markets

                                           Volume:
                                            35,921


                                           Revenue:
                         Transactions      $15,172


                                         Contribution:
                                           $7,938


                                           Volume:                                                         Volume:
    Five Mail Markets




                                            6,200                                                           81,841


                                           Revenue:                                                       Revenue:
                          Advertising      $2,143                                                          $16,651


                                         Contribution:                                                   Contribution:
                                           $1,419                                                          $5,612


                                                                                           Volume:
                                                                                            7,269


                                                                                           Revenue:
                          Periodicals                                                       $1,879


                                                                                         Contribution:
                                                                                            ($611)


                                             One-Three Day               Overnight                                Ground
                                                    Volume:                Volume:                                  Volume:
                                                     1,099                   43                                      1,341


                                                    Revenue:              Revenue:                                Revenue:
                          Packages                   $5,675                $828                                    $2,098


                                                 Contribution:           Contribution:                           Contribution:
                                                   $1,402                   $332                                   ($368)




Source: OIG Analysis

8
 In addition to the mail out of scope (e.g., International Mail), these data exclude nonhousehold-to-nonhousehold
First-Class Mail.


                                                                     2
U.S. Postal Service Office of Inspector General                                                       April 27, 2012
State of the Mail                                                                                  RARC-WP-12-010


Figure 1, Figure 2, and Figure 3 present additional descriptive statistics on volume,
revenue, and contribution for each mail segment. These figures show that Standard
advertising generates the highest volume and revenue, but is second to First-Class Mail
transactions in contribution.
              Figure 1: The Mail Today – FY 2010 Volume by Mail Segment (171 billion)9
                                                                     FCM
                                                 Other          Correspondence
                  Ground Packages                13%                  9%
                          1%
               Overnight Flats &
                  Packages
                   0.02%                                                             FCM
                                                                                 Transactions
                Two- & Three-                                                        21%
                Day Packages
                     1%
                 Periodicals
                     4%

                                                                                 FCM Advertising
                                                                                      4%




                                  STD Advertising
                                       48%

Source: OIG Analysis

             Figure 2: The Mail Today – FY 2010 Revenue by Mail Segment ($66 billion)10

                                                                       FCM
                                                                  Correspondence
                                         Other                         10%
                                         23%



                                                                                      FCM
                  Ground Packages                                                 Transactions
                          3%                                                          23%
               Overnight Flats &
                  Packages
                     1%

                         Two- & Three-
                         Day Packages
                              9%                                             FCM Advertising
                                                                                  3%
                                 Periodicals
                                     3%
                                                         STD Advertising
                                                              25%
Source: OIG Analysis

9
  These volumes are estimated based on the Postal Service’s Revenue, Pieces and Weight (RPW) reports, the
Household Diary Study (HDS), and the Cost and Revenue Analysis (CRA) reports. The “Other” estimate includes
nonhousehold-to-nonhousehold First-Class Mail, U.S. Postal Service mail, free mail for the blind and handicapped,
and International Mail. Segments do not total to 100 percent due to rounding.
10
   These revenues are estimated based on the HDS, RPW, and CRA. The “Other” estimate is the catch all category
that includes nonhousehold-to-nonhousehold First-Class Mail, International Mail, special services, and miscellaneous
(e.g., other, fees, fines).


                                                          3
U.S. Postal Service Office of Inspector General                                                       April 27, 2012
State of the Mail                                                                                  RARC-WP-12-010

           Figure 3: The Mail Today – FY 2010 Contribution by Mail Segment ($25 billion)11

                                                                       FCM
                                                                  Correspondence
                                                                       10%
                                         Other
                                         25%




                                                                                       FCM
                     Overnight Flats &                                             Transactions
                        Packages                                                       31%
                           1%

                     Two- & Three-
                     Day Packages
                          5%


                                     STD Advertising                 FCM Advertising
                                          22%                             5%


Source: OIG Analysis


Different mail segments have different strengths and weaknesses, and face wide
ranging opportunities and challenges. Strengths and opportunities include the unique
characteristics of emotional content mail, high response rates, complementary effects
with other media, high value of content, competitive prices, first and last mile
competitive advantages, and value-added services. Some mail market segments face
                            headwinds from electronic diversion, negative economic
  There is little middle    trends, strong competition, and the lack of value-added
  ground and most of the services. Some mail segments have strong fundamentals
  mail faces either a       while others face adversity. We computed overall
  promising or              assessments for each mail segment. The criteria we used,
  challenging outlook.      as well as our analysis per mail segment, can be found in
                            Appendix B. There is a dichotomy of results in our
assessment. Many mail segments have prospects for a bright future, other segments
face formidable challenges. Only two segments are given a neutral outlook.

Table 2 presents the overall assessment and shows that three mail segments First-
Class and Standard Advertising and Two- and Three-Day Packages have a promising
outlook. Two segments, Overnight Packages and Ground Packages, are given a neutral
assessment. Three segments are characterized as facing serious challenges, First-
Class Correspondence and Transactions, and Periodicals.




11
   Contribution is estimated based on the RPW, HDS, and CRA. The total contribution of $25 billion accounts for mail
segments with negative contribution. However, the pie chart excludes Periodicals and Ground Packages because
they have negative contribution and presents a relative share of mail segments with positive contribution. The “Other”
estimate is the catch-all category and includes nonhousehold-to-nonhousehold First-Class Mail, International Mail,
and special services. Segments do not total to 100 percent due to rounding.


                                                          4
                      U.S. Postal Service Office of Inspector General                                                          April 27, 2012
                      State of the Mail                                                                                     RARC-WP-12-010

                                                   Table 2: The Mail Tomorrow – Mail Segments

                     Eight Mail                                                   Six Mail Products
                                         First-Class Mail Priority Mail           Express         Periodicals          Standard           Package
                     Segments                                                       Mail                                 Mail             Services
                                           Challenged            Outlook Evaluation Factors
                                           Threat: High           Threat – Are there existing or emerging threats to the mail segment?
                                                                  Lack of Countermeasures – Can the Postal Service counter or avoid the threats?
                                         Lack of Counter-
                     Correspondence        measures:              Impact – What are the potential financial impacts of these threats on the Postal
                                                                   Service? How likely are they to occur?
                                              High
                                                                 Overall Outlook Assessments
                                             Impact:              Promising Outlook – Has strong fundamentals and faces opportunities. Future
                                             Medium                impacts are potentially positive. Management can leverage strengths to lead to
                                           Challenged              positive future results.
                                           Threat: High           Neutral Outlook – Faces equal challenges and opportunities. Future impacts might
                                                                   be negative or positive. Active and smart management is key to counter threats and
                                         Lack of Counter-          exploit opportunities.
                      Transactions         measures:              Challenged Outlook – Has fundamentals that are trending negative and faces major
                                              High                 challenges and hurdles. Future impacts are likely profound and negative. The only
                                                                   solution may be a fundamental change in business strategy.
                                              Impact:
                                               High
                                                                                                                       Promising
                                            Promising
                                                                                                                        Threat:
                                                                                                                        Medium
                                             Threat:
 Five Mail Markets




                                             Medium                                                                     Lack of
                       Advertising
                                                                                                                       Counter-
                                         Lack of Counter-
                                                                                                                       measures:
                                          measures: Low
                                                                                                                         Low
                                             Impact:
                                                                                                                        Impact:
                                             Medium
                                                                                                                         High
                                                                                                   Challenged
                                                                                                    Threat:
                                                                                                     High

                                                                                                    Lack of
                       Periodicals                                                                 Counter-
                                                                                                   measures:
                                                                                                     High

                                                                                                     Impact:
                                                                                                     Medium
                                               Two- & Three-Day                   Overnight                                       Ground
                                                                                   Neutral
                                                    Promising                      Threat:                                        Neutral
                                                                                   Medium
                                                   Threat: Low                                                               Threat: Medium
                                                                                   Lack of
                        Packages
                                                    Lack of                       Counter-                                     Lack of
                                                Countermeasures:                  measures:                                Countermeasures:
                                                      Low                          Medium                                        Low

                                                     Impact:                       Impact:                                        Impact:
                                                     Medium                          Low                                          Medium
Source: OIG Analysis



                                                                              5
U.S. Postal Service Office of Inspector General                                                                                                                                                                               April 27, 2012
State of the Mail                                                                                                                                                                                                          RARC-WP-12-010


Table 3 presents a summary of our assessments by outlook. The three products with a
positive outlook account for slightly more than half the mail volume, 37 percent of the
revenue and a third of the contribution to institutional costs. Although these products
face challenges, the prospects for growth remain strong. These products have sound
fundamental characteristics and compliment the growing digital marketplace. Two
products have a neutral outlook. These package products may benefit from the growth
in eCommerce but have struggled to make a contribution to institutional costs. They
account for only one percent of volume and contribution and 4 percent of revenue. The
remaining products face a difficult business environment, due in large part to electronic
substitutes. These products account for 34 percent of mail volume, 35 percent of
revenue and 41 percent of the contribution. Mail still has value to both senders and
recipients. The fundamental business challenge facing the Postal Service is to make
these products more viable or replace them with equally profitable products — both
physical and digital — while managing their seemingly inevitable decline.

                              Table 3: Mail Segments by Outlook, FY 2010

                                                                                             Outlook Level
                                                    Promising                         Two- and Three-Day Packages    Neutral                                          Challenged
                                                                                                                    Overnight Flats & Packages

                         Mail
                       Segments                                                                                                                                    FCM Correspondence

                                                                                                                                                                                          FCM Transactions
                                                                                                                                                 Ground Packages


                          (FY 2010
                                             FCM Advertising

                                                                STD Advertising




                          millions)
                                                                                                                                                                                                             Periodicals




                     Volume                                    89,141                                                      1,383                                                        57,773
                         % Volume                                  52%                                                        1%                                                             34%
                     Revenue                                   24,468                                                      2,926                                                        23,557
                       % Revenue                                   37%                                                        4%                                                             35%
                     Contribution                              8,433                                                        332                                                         10,477
                     % Contribution                                33%                                                        1%                                                             41%
                     Source: OIG Analysis. Excludes Other Mail.



Three Major Trends
The Postal Service finds itself in the grip of three economic phenomena: the Great
Diversion, the Great Recession, and the Great Slump. The Great Diversion is the long-
term and relentless loss of the most profitable mail volume to electronic media. The
Great Recession is the abrupt decline in the economy from December 2007 to June
2009. The Great Slump is the prolonged, lethargic recovery of the American (and, for


                                                                                  6
U.S. Postal Service Office of Inspector General                                                                                                   April 27, 2012
State of the Mail                                                                                                                              RARC-WP-12-010


that matter, global) economy. Any one of these phenomena would hamstring the Postal
Service financially; taken together, they are crippling. This section of the paper explores
how these three phenomena affect trends in Postal Service volume and contribution.

The Great Diversion

The Postal Service’s financial dependence on First-Class Mail has been precarious for
the last 16 years, as the expanded use of the Internet has made First-Class Mail less
relevant to mailers. Figure 4 summarizes the diversion story succinctly.
                        Figure 4: Real Gross Domestic Product and First-Class Mail Volume (Indexed to 1973)

                        280 

                                             From the 1970’s to the mid-
                        260                  1990’s, both the economy and
                                             First-Class Mail volume grew
                                             at a similar and steady pace.
                        240 


                        220 
     Index (1973‐100)




                        200 

                                                      Real GDP            First‐Class Mail
                        180 


                        160 

                                                                                                                    In the mid-1990’s this
                        140                                                                                         relationship was derailed as
                                                                                                                    the internet became widely
                                                                                                                    available, causing First-Class
                        120                                                                                         Mail growth began to decline.


                        100 
                               1973

                                      1975

                                             1977

                                                    1979

                                                           1981

                                                                  1983

                                                                         1985

                                                                                1987

                                                                                       1989

                                                                                              1991

                                                                                                     1993

                                                                                                            1995

                                                                                                                   1997

                                                                                                                          1999

                                                                                                                                 2001

                                                                                                                                        2003

                                                                                                                                               2005

                                                                                                                                                      2007

                                                                                                                                                             2009




Sources: OIG Analysis and Peter Bernstein of RCF Economics and Financial Analysis


The economy, as measured by real Gross Domestic Product, grew at a steady pace
through most of the last four decades. For the first half of this period, First-Class Mail
volume grew at nearly the same pace as the economy. Then, in the mid 1990s,
something clearly changed. Once the province of hobbyists and academics, the Internet
became widely available to households and businesses. Slow dial up services gave way
to high speed broadband connections.12 Paid electronic billing services transformed into
free bill pay service on every major bank’s website. Although broadband penetration
has slowed in recent years, there are many reasons to believe that access to and use of
12
     Ironically, much of the early growth of the Internet was fed by discs of America Online software distributed by mail.


                                                                                          7
U.S. Postal Service Office of Inspector General                                                        April 27, 2012
State of the Mail                                                                                   RARC-WP-12-010


the Internet will continue to grow. For example, mobile Internet access via smart phones
continues to rapidly increase. Incremental expansion of broadband access to low
income households continues to attract the attention of policy makers.

First-Class Mail volume growth slowed relative to the economy. The effect of electronic
diversion was first felt by single-piece First Class Mail, but, in the early 2000s, it spread
to bulk (i.e., workshared) First-Class Mail. At this point, First-Class Mail volume actually
began to decline. But for a brief plateau in the mid-2000s it has shown no signs of
positive growth.

 The Postal Service would
                                 The Great Diversion raised the grim prospect of replacing
 need 3.2 new pieces of          the Postal Service’s most profitable product with
 Standard Mail to offset         something else. Obviously, the first candidate would be
 the lost contribution from      the second most profitable product, Standard Mail. Other
 a single piece of First-        than a small amount of light-weight parcels, Standard Mail
 Class Mail.                     is composed of advertising material. In 2010, Standard
                                 Mail earned about one-third the contribution of First-Class
Mail. Put another way, the Postal Service would need 3.2 new pieces of Standard Mail
to offset the lost contribution from a single piece of First-Class Mail. From 2008 to 2010,
First-Class Mail volume declined by 13.4 billion pieces. To keep the Postal Service’s
contribution intact, Standard Mail volume would have had to grow by 43.2 billion pieces.
History tells us that such a surge in Standard Mail volume would have been
unprecedented;13 Standard Mail volume has never increased more than 8 billion pieces
in a single year. In fact, rather than increasing from 2008 to 2010, Standard Mail volume
fell by 16.6 billion pieces.

Other products are available to stanch the bleeding from electronic diversion, but none
of these products, alone or taken as a group, are nearly big enough. Express Mail,
Priority Mail, Parcel Select, and all international Shipping Services produced $2.4 billion
in contribution in 2010. This is only one fourteenth the size of First-Class Mail’s
contribution. Finally, all other products account for only about 2 percent of the total
contribution attributable to products in 2010. Many of these products are “under water”;
that is, their costs exceed their revenues.

First-Class Mail

Personal Income Tax Returns and Refunds

It is reasonable to ask what the prospects are for an easing of electronic diversion.
Personal income tax returns and refunds are perhaps one example of this, as
evidenced in Figure 5. The Internal Revenue Service (IRS) has repeatedly failed to


13
   Aside from being unprecedented, a surge of volume of this magnitude could have two adverse consequences for
the Postal Service. First, recipients of the surge in advertising mail might be annoyed by the sudden clutter in their
mailboxes. This could result in a backlash from recipients characterized by low response rates, and renewed support
for “Do Not Mail” legislation. Second, the surge could also cause recipients and policy makers to ask the question,
“Why do we need a government agency to inundate us with all this advertising?”


                                                          8
U.S. Postal Service Office of Inspector General                                                     April 27, 2012
State of the Mail                                                                                RARC-WP-12-010


meet its electronic filing goals.14 One can view this as a result of a normal product
maturation process. In the beginning, electronic adoption grew quickly. With each
passing year, adoption growth slowed as reluctant hold outs continue to use the mail. In
2011, 77 percent of personal income tax returns were filed electronically.15 Moreover,
the IRS used direct deposit to provide 72 percent of all refunds.16

          Figure 5: Annual Growth in Electronic Personal Income Tax Returns and Refunds

 25%


                                                                E‐filed      Direct Deposit

 20%




 15%




 10%




     5%




     0%
          1999   2000    2001    2002    2003     2004   2005    2006     2007   2008     2009     2010   2011

Source: IRS



Bills and Statements

Can the same observation be made for electronic bill payment? In 2010, household
electronic bill payments exceeded household mailed payments for the first time. The
average rate of growth in household bill payments since 2002 has been 14 percent; in
2010 it was 15 percent.17 Unlike tax filings, the rate of growth of payments does not
appear to be slowing noticeably.



14
   “IRS Will Not Meet 80% E-File Goal, Oversight Board Says,” Journal of Accountancy, January 19, 2011,
http://www.journalofaccountancy.com/Web/20113764.htm.
15
   OIG analysis based on IRS data found at http://www.irs.gov/newsroom/article/0,,id=220953,00.html.
16
   Ibid.
17
   OIG analysis of HDS data.


                                                         9
U.S. Postal Service Office of Inspector General                                                       April 27, 2012
State of the Mail                                                                                  RARC-WP-12-010


Bills and statements mailed in bulk from non-households to households, a very large
segment of First-Class Mail, has yet to succumb to the onslaught of electronic diversion
and remain overwhelmingly in the mail stream. The percentage of household bills and
statements received electronically grew 82 percent, from 7.7 percent in 2007 to
14 percent in 2010. This diversion process is still in its early stages. Moreover, issuers
of bills and statements, eager to convert their customers to electronic presentment, are
meeting with unexpected resistance.18

The big gap between electronic bill payment and electronic bill and statement
presentment can be explained by a number of factors. Households save money on
postage, checks, and envelopes when they pay bills electronically. In contrast, unless
they are actually charged for receiving bills and statements by mail, households accrue
no direct savings from electronic presentment.19 Moreover, mail affords certain other
benefits to recipients of bill and statements. Mailed bills and statements can be filed
away for record keeping. They also are a physical reminder that bills are due. Finally,
electronic billing may make it inconvenient to switch banks (a plus for the bank but a
potential minus for the consumer).

Correspondence

So far we have only discussed First-Class Mail that facilitates transactions. Another
component of First-Class Mail that has been adversely affected by electronic media is
correspondence. From 2002 to 2010, First-Class correspondence volume declined 18
percent, only slightly less than the 20 percent decline in transactions volume.20 Of
course, email is one reason for the decline. Another is      The historical, steady
the use of social media such as Facebook.                    decline in
                                                                             correspondence mail will
These are new developments in a much longer story,            continue indefinitely.
however. The availability of direct-dial long distance
telephone service, followed by telephone deregulation, and flat rate calling plans all
resulted in substitution of voice communication for correspondence. Briefly, fax
machines also competed with correspondence mail. In light of this long history of
electronic diversion, it is safe to say that the steady decline in correspondence mail will
continue indefinitely.

Netflix and Other Online Resources

Another development in this story it that of Netflix, which stood out as an example of
how the digital age could benefit the Postal Service. Until recently, Netflix volume grew
rapidly while most of First-Class Mail declined. It is now clear that streaming video,

18
   Emmett Higdon, “Paperless Plight: Growing Resistance Outpaces Adoption Among US Bank Account Holders,”
Forrester Research, November 1, 2010, http://www.forrester.com/rb/Research/paperless_plight_growing_resistance_
outpaces_adoption_among/q/id/57969/t/2 and “Why 82.639% of Internet Bankers will not turn off Paper Statements,”
EBilling News blog, May 6, 2010, http://ebillingnews.blogspot.com/2010/05/why-82639-of-internet-bankers-will-
not.html.
19
   Of course, the higher cost of providing paper statements may be indirectly assessed in other charges related to the
services, such as monthly service fees.
20
   OIG analysis of US Postal Service Household Diary Study 2003 and 2010.


                                                         10
U.S. Postal Service Office of Inspector General                                                      April 27, 2012
State of the Mail                                                                                 RARC-WP-12-010


whether by Netflix, Hulu, or other online resources, will replace more and more DVDs in
the mail.

Rate of Electronic Diversion

The Postal Service has not released a detailed long-range volume forecast since
March 2, 2010. Nevertheless, one can piece together a long-range outlook for electronic
diversion of First-Class Mail from various published sources. The March 2010 forecast
produced by Boston Consulting Group (BCG) predicted an increase in diversion of
numerous segments of First-Class Mail over the next 10 years.21 Also, according to the
Postal Service’s econometric model, the rate of electronic diversion, at least for
transactions, increased during the recession.22 Finally, recent postal testimony before
the Postal Regulatory Commission is even more pessimistic than the BCG forecast.23 It
is safe to conclude that the Postal Service does not expect the rate of electronic
diversion of First-Class Mail to abate in the long-term. This financial strain from
increased electronic diversion is embedded in the Postal Service’s long-range forecasts.

Informational Products
Other products are susceptible to electronic diversion, but many of these are losing
money. Informational material such as periodicals, catalogues, music and books are all
subject to electronic diversion. Periodicals mail has been subject to adverse trends for
decades, a victim of the spread of broadcast television, cable television, the Internet
and other entertaining diversions such as video games. Additional loss of Periodicals
                              volume to electronic diversion exacerbates this long-term
The recent explosion in       secular decline. According to Postal Service econometric
the sales of tablet           estimates, Media and Library Mail lost about 11 percent of
devices such as               their volume to electronic diversion in 2008 and 2009.24
Amazon.com’s Kindle
Fire, Barnes and Noble’s
                            The recent explosion in the sales of tablet devices such as
Nook, and Apple’s iPad2
have added yet another
                            Amazon.com’s Kindle Fire, Barnes and Noble’s Nook, and
chapter to the diversion    Apple’s iPad2 have added yet another chapter to the
story.                      diversion story. Catalogues have lost their primacy in many
                            retailers’ advertising campaigns. Instead of catalogue after
catalogue, mail order companies now send one catalogue, followed by oversized
postcards and flyers to remind customers to visit the mailer’s website.

Music has evolved from physical sales units such as long playing and single records to
8-track tapes, cassette tapes, and CDs, to digital sales units (MP3s). Music lovers now
download their favorite songs to one or more digital devices. Mail order record clubs are

21
   Boston Consulting Group, Projecting US Mail Volumes to 2020 Final Report – Detail, March 2, 2010, p.9,
http://about.usps.com/future-postal-service/bcg-detailedpresentation.pdf.
22
   U.S. Postal Service, Direct Testimony of Joseph Corbett on Behalf of the United States Postal Service, Postal
Regulatory Commission Docket No. N2010-1, pp. 8-9, http://www.prc.gov/Docs/67/67421/USPS.T.2.Corbett.pdf.
23
   U.S. Postal Service, Direct Testimony of Stephen Masse on Behalf of the United States Postal Service, Postal
Regulatory Commission Docket No. N2012-1, http://www.prc.gov/Docs/78/78319/USPS-T-2-Masse.pdf.
24
   U. S. Postal Service, Library Reference USPS-R2010-4R/1, FY 2008 and FY 2009 Recession-Related Volume
Loss Documentation, Postal Regulatory Commission Docket No. R2010-4(R), FY08.09.Recessn.Conversion.xls.
http://www.prc.gov/prc-pages/library/detail.aspx?docketId=R2010-4&docketPart=Documents&docid=77953.


                                                         11
U.S. Postal Service Office of Inspector General                                                         April 27, 2012
State of the Mail                                                                                    RARC-WP-12-010


a thing of the past.25 Books are following a similar path into digital transmission. The
proliferation of tablet computers has fueled this transition.

Direct Mail Advertising
One remarkable and encouraging trend over the last decade is the market share of
direct mail advertising. Figure 6 shows that the market share for direct mail advertising
has remained essentially unchanged for the past two decades.26 This may be because
of two traits that direct mail advertising shares with digital advertising. Both direct mail
and digital advertising can be targeted to customers by means of mailing lists. And the
results of direct mail and digital advertising campaigns can be quantified.

                       Figure 6: Direct Mail as a Share of Total Advertising Spending

         20%
         18%
         16%
         14%
         12%
         10%
         8%
         6%                      The market share for direct mail advertising has remained
                                 essentially unchanged for the past two decades.
         4%
         2%
         0%
                1991


                          1993


                                      1995


                                               1997


                                                         1999


                                                                     2001


                                                                            2003


                                                                                     2005


                                                                                              2007


                                                                                                        2009
                                                                                                                    
Source: U.S. Postal Service Household Diary Study 2010 (Magna Advertising Group data)


The strength of direct mail advertising may also be a consequence of a favorable
balance between substitutability and complementarity. Obviously, some digital
advertising is a substitute for direct mail. A good example is an e-mail coupon mailed by
the local automotive repair shop to its regular customers. In the past, this coupon was
probably sent via the mail. Other types of direct mail marketing may work hand in hand
with digital advertising or websites. An example is a mailing designed solely to drive
customers to a website. As a consequence of mailings such as these, response rates to



25
   Dirk DeYoung, “Mail-order music clubs hit end of playlist,” Minneapolis / St. Paul Business Journal, June 15, 2011,
http://www.bizjournals.com/twincities/blog/everybodys_business/2011/06/end-of-a-music-selling-era.html.
26
   U.S. Postal Service, “The Household Diary Study, Mail Use & Attitudes in FY 2010,” April 2011,
http://www.prc.gov/Docs/73/73501/USPS_HDS_FY10_FINAL_.pdf, p. 39.


                                                                12
U.S. Postal Service Office of Inspector General                                                    April 27, 2012
State of the Mail                                                                               RARC-WP-12-010


a digital advertising campaign may increase.27 This does not mean, however that direct
mail will be immune to electronic diversion in the future. The BCG forecast of
March 2, 2010 assumes “increasing online diversion driven by increased consumer
acceptance” 28 resulting in shifting volumes to online alternatives for acquisition and
retention mail.29 Accordingly, Postal Service forecasts assume future volume and
revenue loss to digital alternatives.

Packages
One bright spot from the Great Diversion is the potential for gains in package volume
from Internet retailers. Parcel Select and Parcel Return Service grew 19 percent from
2007 to 2011.30 This is remarkable performance considering the state of the economy.
In contrast, despite the increasing popularity of the Priority Mail Flat-Rate Box, Priority
Mail volumes in total are actually less than they were in 2004. This apparent
contradiction is the result of a number of offsetting forces. For example, some Priority
Mail flats containing documents are susceptible to electronic diversion. Additionally,
some Priority Mail commercial parcel customers find that Parcel Select is an attractive
alternative to two- and three-day Priority Mail service, especially during the recession. In
another example, many e-tailers such as Amazon.com, offer deferred delivery (via
Parcel Select) for free, and charge a premium for faster delivery. Finally, ground parcel
service from private sector providers is very competitive with Priority Mail, particularly
over short distances.

The Great Recession

While the Great Diversion is a long-term, continuing phenomenon, the Great Recession
is a story of an abrupt and rapid decline. Not since the 1930s has the American
economy been dealt such a severe blow as the Great Recession of 2007 to 2009.
According to the Business Cycle Dating Committee of the National Bureau of Economic
Research (NBER),31 there have been three recessions since 1990. The first two
                         recessions both lasted eight months, one from July 1990 to
  Not since the          March 1991, and the second from March to November 2001.
  1930s has the          The 1990-91 and 2001 recessions resulted in job losses of
  American economy       1.6 million and 2.7 million, respectively. Figure 7 illustrates that,
  been dealt such a      in both of these cases, employment gains did not become
  severe blow as the
                         consistently positive until well after the official end of the
  Great Recession of
  2007 to 2009.          recession. The persistence of unemployment even led the 2001
                         recovery to be known as the jobless recovery.

27
   Alex Batchelor, “Mail 2.0: How Digital Is Driving the Re-invention of Mail,” Journal of Direct, Data and Digital
Marketing Practice, January-March 2008, Vol. 9, pp. 260-273.
28
   Boston Consulting Group, Projecting US Mail Volumes to 2020 Final Report – Detail, p.7.
29
   Ibid., p. 9.
30
   Postal Regulatory Commission, FY 2010 Annual Compliance Report, Docket No. ACR2010, http://prc.gov/Docs/72/
72487/PRC_ACD_2010_UPDATED_1774.pdf, December 29, 2010 and Postal Regulatory Commission, FY 2008
Annual Compliance Report, Docket No. ACR2008, December 29, 2008, http://www.prc.gov/Docs/61/61739/ACR.
FY2008.Final.pdf.
31
   The National Bureau of Economic Research, “US Business Cycle Expansions and Contractions,”
http://www.nber.org/cycles/cyclesmain.html.


                                                        13
U.S. Postal Service Office of Inspector General                                                                     April 27, 2012
State of the Mail                                                                                                RARC-WP-12-010

                   Figure 7: Month to Month Change in Nonfarm Employment, CY 1989 – CY 201132
                    600




                    400




                    200




                      0
       Thousands




                   ‐200




                   ‐400




                   ‐600
                           The 1991                                        The 2001
                           Recession                                       Recession
                   ‐800

                                                                                                     The Great Recession
                                                                                                        of 2007 - 2009
                   ‐1000
                           1990   1992   1994      1996     1998       2000     2002   2004       2006   2008     2010

                                                Recession          Change in Nonfarm Employment
                                                                                                                             
Sources: Bureau of Labor Statistics and National Bureau of Economic Research


The 1991 recession had very little effect on the advertising industry. Total advertising
spending declined only 1.9 percent in 1991. The 2001 recession was quite different with
advertising spending falling 6.2 percent. At the time, this was considered an advertising
depression, especially for Internet advertising which declined 12 percent in 2001 and
16 percent in 2002.33 In contrast, the most recent recession officially lasted 18 months
from December 2007 to June 2009. The decline in real Gross Domestic Product led to
an economy-wide loss of 8.75 million jobs. With the exception of a hiring spike
associated with the decennial census, these job losses persisted into 2010.

Compared to the Great Recession, the recessions of 1991 and 2001 seem almost
innocuous. What made the Great Recession different for the economy as a whole was
its cause. Unlike the previous recessions, this recession was caused by a financial
panic. The direct impact of the financial aspect of this recession derives from the fact
that financial services firms are intensive users of postal services. According to the
Postal Service’s Household Diary Study 2010, 31 percent of direct mail advertisements
were sent by financial services firms in 2005. By 2009, this share had fallen to 23
percent.



32
  CY stands for Calendar Year.
33
 Jeffrey F. Rayport, “Why Online Ads Are Weathering the Recession,” Bloomberg Business Week, December 24,
2008, http://www.businessweek.com/technology/content/dec2008/tc20081224_411499.htm.


                                                                      14
U.S. Postal Service Office of Inspector General                                                                  April 27, 2012
State of the Mail                                                                                             RARC-WP-12-010


The Great Recession included the collapse of the Since 2008, the economic
housing market, which led to millions of             contraction has caused a
foreclosures. Fewer housing units meant, for         23 percent reduction in the
example, fewer utility bills and fewer mortgage      number of credit card accounts.
payments. The Great Recession also affected
credit cards. Figure 8 shows that since 2008, the economic contraction has caused a
23 percent reduction in the number of credit card accounts.34
                             Figure 8: Number of Accounts by Loan Type, CY 1999 – CY 2011

                250                                                                                                 500




                200                                                                                                 450
                                                                                Credit Card
                                                                                (Right Axis)

                150                                                                                                 400




                                                                                                                          Millions
     Millions




                100                   Mortgage                                                                      350
                                      (Left Axis)



                50                                                                                                  300
                        Auto Loan
                                              Home Equity
                        (Left Axis)
                                               (Left Axis)

                 0                                                                                                  250
                                                                                                             2011
                      1999

                             2000

                                      2001

                                             2002

                                                    2003

                                                           2004

                                                                  2005

                                                                         2006

                                                                                2007

                                                                                       2008

                                                                                               2009

                                                                                                      2010




Source: Federal Reserve Bank of New York


The total number of bills and statements received by households, by any method (hard
copy or electronic), fell from a peak of nearly 26 billion to just under 22 billion from
FY 2006 to FY 2010.35 Overall, the transactions component of First-Class Mail fell
17 percent from 2007 to 2010.36

Figure 9 shows First-Class and Standard Mail relative to the economy as a whole. The
mild recessions of 1991 and 2001 clearly had an adverse effect on the volume of these
postal products. First-Class Mail volume growth slowed to a stop in 1992, sustaining the
34
   Federal Reserve Bank of New York, Research and Statistic Group, Quarterly Report on Household Debt and
Credit, February 2011, http://newyorkfed.org/research/national_economy/householdcredit/DistrictReport_Q42010.pdf.
35
   OIG analysis of U.S. Postal Service Household Diary Studies 2006-2010.
36
   Ibid.


                                                                    15
U.S. Postal Service Office of Inspector General                                                 April 27, 2012
State of the Mail                                                                            RARC-WP-12-010


impact of the recession well into the following year. First-Class Mail rebounded
somewhat through the 1990s, but declined again from 2000 to 2003. Standard Mail
volume growth turned negative in 1991 and began to rebound in 1992, turning strongly
positive throughout the rest of the decade. Standard Mail volume also stagnated in 2001
and then declined in 2002 (perhaps, in part, as a result of the Anthrax attacks), only to
recover strongly in 2003.

  Figure 9: Year over Year Growth in Real GDP, and First-Class Mail and Standard Mail Volumes

    10%




     5%




     0%
          1990    1992      1994      1996        1998        2000   2002      2004   2006     2008      2010



    ‐5%




   ‐10%




   ‐15%




   ‐20%
                                   Real GDP       First‐Class Mail   Standard Mail


Sources: Bureau of Economic Analysis and U.S. Postal Service


The effects of these two recessions, however, pale in comparison to the Great
Recession. First-Class Mail, already in decline since 2002 because of electronic
diversion, fell into a steep decline in 2008. This decline persisted through 2010, beyond
 The 2007 recession,       the official end of the recession. This persistence is not
 not the 2001              surprising given the weakness in job creation and household
 recession, was a          formation. As bad as the First-Class Mail decline was, it was
 true advertising          dwarfed by the decline in Standard Mail. This recession, not
 depression.               the 2001 recession, was a true advertising depression. In
                           2008, Standard Mail volume declined by 4.3 percent, only
slightly worse than the 3 percent decline in 2002. Rather than recovering as it did in
2003, Standard Mail went into a nose dive, falling 16.8 percent more in 2009.


                                                         16
U.S. Postal Service Office of Inspector General                                                  April 27, 2012
State of the Mail                                                                             RARC-WP-12-010


Direct mail advertising from credit card companies was already in decline before the
recession. According to the Household Diary Study, advertising mail from financial
services firms peaked at 19.9 billion pieces in FY 2006. By 2009 this volume had
decreased nearly 36 percent to 12.8 billion pieces. The decline began because mail
boxes had become saturated with solicitations from financial services companies.
According to Synovate’s Mail Monitor ongoing survey, in calendar year (CY) 1998 the
credit card industry mailed 3.4 billion solicitations with a response rate of 1.2 percent.37
By CY 2006, the number of credit card solicitations had more than doubled to nearly 5.8
billion and the response rate had sunk to a paltry 0.2 percent by the first quarter of CY
2006.38 In light of this pre-existing weakness, the recent financial crisis could not have
come at a worse time for Standard Mail.

First-Class Mail and Standard Mail growth are both positively correlated with economic
growth. When the economy falls, both First-Class and Standard Mail volumes fall with it.
Cyclical declines in First-Class Mail volume are unlikely to
be offset by cyclical increases in Standard Mail volumes.      When the economy
                                                                                falls, both First-Class
A closer look at Figure 9 highlights another characteristic of   and Standard Mail
the mail that has important policy implications. The growth      volumes fall with it.
rate of First-Class Mail volume over the last 20 years has
ranged from a high of 4.9 percent in 1999 to a low of -4.2 percent in 2009, a range of
9.1 percentage points. Over the same time frame, Standard Mail volume growth ranged
from a high of 7.8 percent in 1997 to a low of -16.8 percent in 2009, a range of
24.6 percentage points. By this metric, Standard Mail volumes vary by 2.7, or almost
three times as much as First-Class Mail volumes.

Advertising mail, which is predominantly Standard Mail, is expected to become a bigger
part of the mail stream. Bigger swings from year to year in the Postal Service’s workload
should be expected, and therefore, resources needed to process, transport, and deliver
mail will need to be increasingly flexible.

Another troubling aspect of advertising mail growth is the potential for a re-emergence
of environmental concerns. During bad economic times, environmentalism can take a
back seat to economic concerns.39 According to a study by the National Bureau of
Economic Research,40 there is a cyclical component to environmental concerns. When
the economy does start to significantly improve, calls for Do Not Mail legislation, which
were commonplace before the Great Recession, will increase as well. A related concern
with advertising mail growth would be increasingly annoyed or “turned off” mail
37
   Nadia Oehlsen, “Global Warming Has Issuers Thinking Green,” ATM, Debit & Prepaid FORUM, October 3-5, 2007,
p.22.
38
   Karen Shuggart, “News – Card Mail,” CardTrack.com, October 16, 2007,
http://www.cardtrak.com/news/2007/10/16/Card_Mail and FDIC-Division of Supervision and Consumer Protection,
Risk Management Examination Manual for Credit card Activities, March 2007,
https://www.fdic.gov/regulations/examinations/credit_card/pdf_version/ch5.pdf, p. 24.
39
   Catherine Rampell, “Is Environmentalism a Luxury Good?” The New York Times, August 3, 2010, http://economix.
blogs.nytimes.com/2010/08/03/is-environmentalism-a-luxury-good.
40
   Matthew E. Kahn and Matthew J. Kotchen, “Environmental Concern and the Business Cycle: The Chilling Effect of
Recession,” Working Paper No. 16241, National Bureau of Economic Research, July 2010, http://papers.nber.org/
papers/w16241.


                                                       17
U.S. Postal Service Office of Inspector General                                                       April 27, 2012
State of the Mail                                                                                  RARC-WP-12-010


recipients. During surges in economic activity, direct mail is used increasingly for
prospecting. Prospecting mail, which is sent to attract new customers, has a
significantly lower response rate than retention mail, which is sent to existing customers.
The decline in response rates to credit card solicitations discussed above is indicative of
this adverse consumer reaction.

Finally, as its product mix becomes increasingly dominated by direct mail advertising,
the imperative of the Postal Service’s Universal Service requirement may be weakened.
Therefore, the Postal Service needs to diversify its product offerings beyond advertising.
New products and services that continue to bind the nation together will be needed.

The Great Slump

Following the Great Recession is the prolonged, lethargic recovery of the American
(and, for that matter, global) economy called the Great Slump. The economy seems to
                                  follow a different path to recovery with each downturn.41
  Following the Great             It took twenty months for employment to return to its
  Recession is the prolonged,     June 1990 pre-recession peak of 109.8 million in
  lethargic recovery of the       February 1992. The employment recovery from the
  American economy called         2001 recession was over twice as long; it returned to
  the Great Slump.                February 2000 pre-recession peak of 132.5 million in
                                  February 2004, 4 years later. As bad as the latter
experience was, the current contraction in employment has been steeper and even
longer. Employment peaked at just under 138 million one month into the Great
Recession in January 2008. Almost 4 years later, in September 2011, employment
remained depressed at only 131.3 million jobs. So why is the economy even slower this
time in creating jobs?

There is a new school of thought about this recession. Reinhart and Rogoff,42 two
prominent current day economists, studied the history of economic contractions around
the world over the last eight centuries. From their research, they concluded that the
recovery from the current financial crisis will be long and slow.43 They noted that
financial crises have a particularly prolonged effect on labor markets: “Over past crises,
the duration of the period of rising unemployment averaged nearly 5 years, with a mean
increase in the unemployment rate of 7 percentage points, which would bring the U.S.
unemployment rate to double digits.”44




41
   The National Bureau of Economic Research, the official keeper of recessions, assigns the start and finish dates of
each event. As we have already shown, the start of a recession does not necessarily coincide with a slowdown in
economic activity, nor does the end date of a recession necessarily mean that the economy is growing robustly.
42
   Carmen M. Reinhart & Kenneth S. Rogoff, This Time Is Different: Eight Centuries of Financial Folly, (Princeton:
Princeton University Press, 2009).
43
   “What Other Financial Crises Tell Us, The Lesson of History Is Grim: Expect a Prolonged Slump,” Wall Street
Journal, February 3, 2009, http://online.wsj.com/article/SB123362438683541945.html.
44
   Ibid.


                                                         18
U.S. Postal Service Office of Inspector General                                                    April 27, 2012
State of the Mail                                                                               RARC-WP-12-010


Two other prominent economists, Papell and Prodan, have built on Reinhart and Rogoff
in more recent research along the same lines.45 Following the lead of Stanford
University professor Robert E. Hall, they called this protracted recovery The Great
Slump.46 Their conclusion was much the same: “The preponderance of evidence for
episodes comparable with the current U.S. slump is that, while potential GDP is
eventually restored, the slumps last an average of 9 years. If this historical pattern
holds, …the Great Slump is not yet half over.”47

Papell and Prodan estimated that the economy would not fully recover from the
recession until the first quarter of FY 2017. In short, the effects of this recession are
expected to linger for 9 years.48 The Postal Service uses IHS Global Insight’s (Global
Insight) 49 forecast of the macroeconomy to drive its financial forecasting models. Global
Insight takes a view similar to that of Reinhart and Rogoff and Papell and Prodan.
Global Insight forecasts that private nonfarm employment will not reach pre-recession
levels until quarter four of FY 2015. Employment levels, adjusted for population growth,
will not return to pre-recession levels between now and 2020.50

The bottom line for the Postal Service is fairly grim. Slow
                                                                                The financial stress that
employment growth will provide a small stimulus to First-                       began with the Great
Class Mail volume growth. The effects of this meager                            Diversion and
stimulus will be inadequate to offset the loss of volume to                     considerably worsened
electronic media. First-Class Mail volumes will continue to                     with the Great Recession
decline for the foreseeable future. The financial stress that                   will linger because of the
began with the Great Diversion and considerably                                 Great Slump.
worsened with the Great Recession will linger because of
the Great Slump.


Managing for Financial Sustainability

A New Corporate Culture
A corporate culture that increases emphasis on financial considerations will strengthen
the state of the mail. More than modifying data systems and reports, this is an
investment in cultural identity. This would transform the day-to-day marketing and
operations of the mail into world-class processes positioned for long-term success. This
includes, but is not limited to, sales associates marketing high contribution products

45
   David H. Papell and Ruxandra Prodan, “The Statistical Behavior of GDP after Financial Crises and Severe
Recessions,” Federal Reserve Bank of Boston Conference on Long-Term Effects of the Great Recession, University
of Houston, October 18-19, 2011, http://www.bos.frb.org/economic/conf/LTE2011/papers/Papell_Prodan.pdf.
46
   Robert E. Hall, “The Long Slump,” American Economic Review 101, April 2011,
http://www.aeaweb.org/articles.php?doi=10.1257/aer.101.2.431, pp. 431–469,.
47
   David H. Papell and Ruxandra Prodan, “The Statistical Behavior of GDP after Financial Crises and Severe
Recessions, Abstract.
48
   Ibid., p. 19.
49
   IHS Global Insight provides comprehensive economic, financial, and political coverage of over 200 countries and
approximately 170 industries.
50
   Derived from unpublished U. S. Postal Service volume forecasting spreadsheet 2011Q3-1012b-Jan(Split).xls. This
forecast underlies Postal Service presentations in August 2011.


                                                        19
U.S. Postal Service Office of Inspector General                                                     April 27, 2012
State of the Mail                                                                                RARC-WP-12-010


instead of high revenue, high cost products; analysts establishing eligibility rules to
maximize contribution instead of meeting narrow operational constraints; and
management realigning future resources to offset lost contribution.
Table 4 summarizes the estimated contribution margins for each mail segment
discussed in The Mail Today section. The Postal Service should develop and
disseminate better and more detailed estimates.51 The process of developing estimates
offers critical insight into the mail and develops a sophisticated body of knowledge.
Further, it promotes a healthy dialogue within the organization across departmental
stovepipes, such as operations, finance, and marketing.
The Postal Service could identify, manage, and market separate mail products with
unique cost, contribution, and market characteristics.52 For example, transactions and
correspondence, which face serious headwinds, offer the second and fourth highest
contribution margins. It will be a challenge to reenergize and offset losses from these
profitable mail segments. This fundamental shift in focus would change how the Postal
Service reports and acts upon data. Managing for financial sustainability offers
advantages that help leverage strengths, identify opportunities, offset weaknesses, and
counter threats. It would inform tough choices and strengthen the state of the mail.
                             Table 4: Mail Segments by Contribution Margin

                                           Percent Contribution
                                            Per Revenue Dollar
                               FCM Advertising                              66%
                               FCM Transactions                             52%
                               Overnight Flats & Packages                   40%
                               FCM Correspondence                           39%
                               STD Advertising                              34%
                               Two- and Three-Day Packages                  21%
                               Ground Packages                             -18%
                               Periodicals                                 -33%
                              Source: OIG Analysis


Delivery Points

In addition to the loss in volume and contribution, mail delivery costs are ever increasing
as the number of delivery points is constantly increasing, roughly by the rate of growth
of the adult population. Between 2000 and 2010, the number of delivery points grew
12 percent to 150.7 million, as illustrated in Figure 10.


51
   Detailed estimates could eventually include data by shape, by customer, by geographic area, and/or by season,
day of week and/or time of day.
52
   Combining this paradigm with an understanding of external customers’ needs would be very powerful and is
characteristic of high-performance companies.


                                                        20
U.S. Postal Service Office of Inspector General                                                April 27, 2012
State of the Mail                                                                           RARC-WP-12-010

                                    Figure 10: Delivery Points, FY 2000 – FY 2010

                             155


                             150


                             145
                  Millions
                             140


                             135


                             130


                             125
                                   2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010


Source: U.S. Postal Service (http://about.usps.com/who-we-are/postal-facts/welcome.htm)


The cost of servicing the delivery network is largely fixed with respect to volume.
Carriers must traverse the entire delivery route regardless of the number of pieces of
mail. And the opportunities for efficiency gains in street delivery are constrained by the
simple fact that increasing the speed of walking or driving from one delivery point to
another has its obvious physical limitations.

Figure 11 describes the pattern in product contribution per delivery point per day over
the past decade. After adjusting for inflation, contribution per delivery point in 2000 was
$221; in 2007 contribution had fallen to $210, an average annual decline of 0.7 percent.
From 2007 to 2009, the contribution decline accelerated. Product contribution stabilized
at $169 per delivery point in 2010, a decline of 23 percent since 2000.

        Figure 11: Annual Product Contribution per Delivery Point in Constant 2010 Dollars

                        $260 
                        $250 
                        $240 
                        $230 
                        $220 
                        $210 
                        $200 
                        $190 
                        $180 
                        $170 
                        $160 
                                   2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010

Source: OIG Analysis




                                                          21
 U.S. Postal Service Office of Inspector General                                                               April 27, 2012
 State of the Mail                                                                                          RARC-WP-12-010


 Contribution Weighted Volume Index

 A case can be made that part of the decline in product contribution per delivery point
 per year is attributable to changes in how retirement-related obligations are treated in
 the product costing system. This problem may be circumvented by re-calculating the
 product costing so that the last 10 years are consistent with one another; however, this
 is a daunting proposition. As shown in Figure 12, an alternative way of depicting the
 downward trend is to adjust the data on delivery point volume using a weighting
 mechanism to account for the different contribution margins on separate postal
 products. This method places more emphasis on high-contribution products. In this way,
 the disparity in contribution across products is accounted for, holding product costing
 methodologies constant.

 In 2000, mail volume per delivery point was 1,545 pieces, a little more than 5 pieces per
 delivery day. By 2010, mail volume per delivery point had declined 27 percent to
 1,132 pieces (nearly 4 pieces per delivery day). Financially, the decline felt considerably
 worse. When volumes are weighted by their unit contribution, mail volumes per delivery
 day were, effectively, 32 percent lower in 2010 than in 2000.

 Most of the gap between actual volumes and contribution-weighted volumes occurred
 before the recession. This is the effect of electronic diversion. During the recession, the
 advertising market, including direct mail advertising (mostly Standard Mail), were
 devastated. The relatively large loss of Standard Mail caused the two lines to move
 closer together as they both plunge. The steep decline is the recession; the
 convergence is the result of losing more Standard Mail than First-Class Mail.

                           Figure 12: Annual Contribution-Weighted Volume Index

                  1,600 

                                                     Volume per Delivery Point
                                                     Contribution‐Weighted Volume per Delivery Point
                  1,500 



                  1,400 



                  1,300 



                  1,200 


                           When volumes are weighted by their unit contribution, mail
                  1,100  volumes per delivery day were effectively 32 percent lower
                           in 2010 than in 2000.

                  1,000 
                             2000   2001   2002    2003   2004    2005   2006   2007   2008   2009   2010


Sources:   OIG Analysis, U.S. Postal Service Cost and Revenue Analysis (CRA) Reports and PRC Annual
           Compliance Determinations (ACD)



                                                             22
U.S. Postal Service Office of Inspector General                                                      April 27, 2012
State of the Mail                                                                                 RARC-WP-12-010


Pricing, Contribution, and Customers

The decline in contribution-weighted volume per delivery point presents a troubling new
reality. There are several possible solutions to this problem. On the cost side,
optimization of the retail and processing networks, as well as five-day delivery, have
been proposed. To date, these efforts have proven to be controversial and have not yet
yielded substantial results. Alternatively, the Postal Service could introduce
nontraditional new products and services, but these would require Congressional or
regulatory approval. Price decreases or volume discounts to stimulate sales of current
products have either not succeeded or, as in the case of competitive products, have not
been of sufficient scale to offset the adverse financial trend. In any case, since the
decline in contribution-weighted volume per delivery point has not been caused by
increased postal prices, price reductions are not likely to be an effective remedy. Price
increases to raise revenue, on the other hand, remain an option.

The effect of postal prices on the demand for postal services in the Internet age is highly
complex. Critics of price increases point to the Internet, asserting that raising prices will
exacerbate the financial problem by driving even more customers away from the mail. In
effect, they are saying that the existence of the Internet has increased the price
sensitivity of demand for postal products. As we have already seen, the effect of the
Internet on postal products, particularly First-Class Mail, has been evident since the
mid-1990s. In that time, First-Class Mail prices have increased numerous times without
a discernable effect on the pace of electronic diversion. An examination of the data
indicates that the decline in First-class volume is largely independent of changes in
postal prices. As Professor Daniel Spulber of the Kellogg School of Management at
Northwestern University, testifying on behalf of advertising mailers, so colorfully stated
over 15 years ago.53

        Technological and market changes are increasing the benefits and
        reducing the costs of electronic transmission. These factors are
        responsible for the rapid expansion of electronic transmission. These
        ongoing and fundamental changes are entirely independent of postal
        rates. They can no more be diverted or slowed by a change in postal rates
        than a reduction in the cost of feeding horses would have halted the
        development of the automobile.54

Conversely, raising prices will not likely increase the overall pace of diversion.55 It is not
surprising, therefore, that, even in the presence of the Internet, the response of postal
53
   One might be tempted to say that this perspective is obsolete. However, J. Gregory Sidak, a well-known expert in
the telecommunications law and economics, agreed under cross examination by the Postal Service that it was still
true 12 years later. Postal Rate Commission Docket No. R2006-1, Postal Rate and Fee Changes, 2006,
Tr. 32/10876, http://www.prc.gov/Docs/55/55218 /Vol-32-11-29-2006.pdf.
54
   Rebuttal Testimony of Daniel F. Spulber on behalf of Advertising Mail Marketing Association, Mail Advertising
Service Association International, Direct Marketing Association, and Mail Order Association of America, Postal Rate
Commission Docket No. R94-1, Postal Rate and Fee Changes, 1994, AMMA et. al.-RT-2,
http://www.prc.gov/prcarchive/viewpdf.aspx?docid=28551, p. 12.
55
   In fact, the Postal Service has used Professor Spulber’s words in defense of subsequent price increases. United
States Postal Service, Initial Brief of the United States Postal Service, Postal Rate Commission Docket No. R2006-1,
pp. 40 – 42, http://www. prc.gov/Docs/55/55476/Initial_Brief_-_FINAL.pdf. As recently as August 1, 2011, the Postal


                                                         23
U.S. Postal Service Office of Inspector General                                               April 27, 2012
State of the Mail                                                                          RARC-WP-12-010


customers to moderate and predictable price increases has not been dramatic, and has
resulted in higher postal revenues.

However, price increases need to be made with careful consideration of other policy
objectives and factors, such as those listed in PAEA.56 Policy makers should be mindful
that these price changes do not further reduce the richness of the mix of mail to
recipients and that is strongly connected to the Postal Service’s core mission of binding
the nation together.


Conclusion
The Postal Service is in a state of unprecedented financial stress caused by three major
trends: the Great Diversion, the Great Recession and the Great Slump. Despite these
trends, it is clear that the Postal Service product portfolio contains several very viable,
high contribution products that American businesses and consumers value. We believe
that the Postal Service can have a financially stable future, but such an outcome will
require a shift in public policy and corporate culture that emphasizes the value of mail
and its contribution (the amount of revenue over and above the cost) over other
concerns, such as a narrow focus on volume recovery.




Service used the Commission’s acceptance of this argument in defense of its exigent price increase. Reply
Comments of the United States Postal Service Regarding Court Remand, Postal Regulatory Commission Docket No.
R2010-4R, Rate Adjustment Due to Extraordinary Circumstances, http://www.prc.gov/Docs/74/74367/Rmnd.Reply.
Cmmtns.pdf, pp. 38 – 39.
56
   Postal Accountability and Enhancement Act, P.L. 109-435, 39 U.S.C. § 3622(b) and (c).


                                                     24
U.S. Postal Service Office of Inspector General             April 27, 2012
State of the Mail                                        RARC-WP-12-010




                                            Appendices




                                                  25
U.S. Postal Service Office of Inspector General                                                     April 27, 2012
State of the Mail                                                                                RARC-WP-12-010




Appendix A                Mail Market Definitions

First-Class Mail Correspondence

First-Class Mail correspondence includes letters, flats, and postcards sent among
households and between households and nonhouseholds.57 This mail is used to
establish or maintain relationships and deliver personal and business communications
including handwritten or typewritten letters, greeting cards, invitations, and
announcements.58 In this way, First-Class Mail correspondence contributes to the mail
moment59 and keeps the mailbox valuable. We expect this mail to have general mail
characteristics similar to single-piece mail. This mail is a premium product for the Postal
Service with a service standard of one to three days.

First-Class Mail correspondence volume was 14.6 billion pieces, revenue was $6.5
billion, and contribution was $2.5 billion in FY 2010. This accounted for 9 percent of total
volume, 11 percent of total revenue, and 10 percent of contribution. Of the eight mail
segments, First-Class Mail correspondence has the third largest revenue while
contributing the fourth largest contribution.

Table A-1 shows that First-Class Mail correspondence had a contribution per piece of
$0.17, which equates to a contribution per revenue dollar, or contribution margin, of 39
percent. This margin ranks as fourth highest out of the eight mail segments.

                Table A-1: First-Class Mail Correspondence – FY 2010 Unit Estimates60

                                   First-Class Mail Correspondence
                             Unit Revenue (UR)              $     0.446
                             Unit Cost (UC)                 $     0.272
                             Unit Contribution (UR-UC)      $     0.174

                             Contribution Per Revenue Dollar $                 0.390
                             Source: OIG Analysis


First-Class Mail Transactions

First-Class Mail transactions includes letters, flats, and postcards sent among
households and between households and nonhouseholds. This mail is used to conduct
financial transactions and includes bills, payments, account statements, donations,

57
   Consistent with the HDS, this mail segment excludes nonhousehold-to-nonhousehold mail.
58
   This section relies on HDS data reported as correspondence mail that include secondary advertising mail also
reported as advertising mail.
59
   The unique time when consumers bring mail into their home, sort, review, and act on it.
60
   These data are based on an OIG analysis of RPW and CRA data. Any discrepancies between total and unit
estimates are caused by discrepancies between RPW and revised CRA data.


                                                         26
U.S. Postal Service Office of Inspector General                                                       April 27, 2012
State of the Mail                                                                                  RARC-WP-12-010


rebates, and mail orders.61 Because transactions likely originate in bulk and trigger
individual responses, we expect this mail to have general mail characteristics similar to
both workshared and single-piece mail, respectively. This mail is a premium product for
the Postal Service with a service standard of one to three days.

First-Class Mail transactions volume was 35.9 billion pieces,62 revenue was $15.2
billion, and contribution was $7.9 billion in FY 2010. That is, this mail accounted for 21
percent of total volume, 25 percent of total revenue, and 32 percent of contribution.

Table A-2 shows that First-Class Mail transactions had a contribution per piece of
$0.22. This equates to the second highest contribution margin among the mail
segments at 52 percent; for every dollar of revenue, this mail contributes 52 cents in
contribution. Considering also that it has the second highest volume and revenue
among the mail segments, First-Class Mail transactions are of great significance to the
Postal Service.

                   Table A-2: First-Class Mail Transactions – FY 2010 Unit Estimates

                                        First-Class Mail Transactions
                                 Unit Revenue (UR)               $    0.422
                                 Unit Cost (UC)                  $    0.201
                                 Unit Contribution (UR-UC)       $    0.221

                                 Contribution Per Revenue Dollar $                0.523
                                 Source: OIG Analysis


First-Class Mail Advertising

First-Class Mail advertising includes letters, flats, and postcards received by
households. This mail is used to deliver sales-related messages and includes
advertising, promotional, and sales material.63 Because advertising likely originates in
bulk, we expect this mail to have general mail characteristics similar to workshared mail.
This mail is a premium product for the Postal Service with a service standard of one to
three days.

First-Class Mail advertising volume was 6.2 billion pieces, revenue was $2.1 billion, and
contribution was $1.4 billion in FY 2010. This mail accounted for 4 percent of total
volume, 4 percent of total revenue, and 6 percent of contribution.

Table A-3 shows that First-Class Mail advertising had a contribution per piece of $0.23.
This equates to a contribution margin of 66 percent; hence, for every dollar of revenue,
this mail contributes 66 cents in contribution, the highest margin of the eight mail

61
   This section relies on HDS data on transactions mail that include secondary advertising mail also reported as
advertising mail.
62
   Transactions account for 62 percent of total First-Class Mail volume, making it the largest subset.
63
   This section relies on HDS data on advertising mail that includes secondary advertising mail also reported as
correspondence and transactions mail.


                                                         27
U.S. Postal Service Office of Inspector General                                            April 27, 2012
State of the Mail                                                                       RARC-WP-12-010


segments. Considering these statistics, First-Class Mail advertising is a major and
important mail segment.

                     Table A-3: First-Class Mail Advertising – FY 2010 Unit Estimates

                                       First-Class Mail Advertising
                                Unit Revenue (UR)               $   0.346
                                Unit Cost (UC)                  $   0.117
                                Unit Contribution (UR-UC)       $   0.229

                                Contribution Per Revenue Dollar $         0.662
                                Source: OIG Analysis


Standard Mail Advertising

Standard advertising includes letters and flats64 that weigh less than 16 ounces sent
among households and nonhouseholds. This mail is used to deliver sales-related
messages and includes flyers, circulars, pamphlets, catalogues, newsletters, and
promotional materials, and cannot be used to deliver personal correspondence,
handwritten or typewritten letters, or bills and statements. Standard advertising is bulk-
entered with a three to ten day service standard and has similar mail characteristics to
workshared mail.

Standard advertising volume was 81.8 billion pieces, revenue was $16.7 billion, and
contribution was $5.6 billion in FY 2010. This mail accounted for 48 percent of total
volume, 28 percent of total revenue, and 23 percent of contribution.

Table A-4 shows that Standard advertising had a contribution per piece of $0.07. This
equates to a contribution margin of 34 percent; for every dollar of revenue, this mail
contributes 34 cents in contribution, the fifth highest margin of the eight mail segments.
The Standard advertising mail segment, with the highest volume and revenue of all
eight mail segments, has great significance.
                      Table A-4: Standard Mail Advertising – FY 2010 Unit Estimates

                                        Standard Mail Advertising
                                Unit Revenue (UR)              $  0.203
                                Unit Cost (UC)                 $  0.135
                                Unit Contribution (UR-UC)      $  0.069

                                Contribution Per Revenue Dollar $         0.337
                                Source: OIG Analysis




64
     Standard parcels are included in the Ground Packages mail segment.


                                                         28
U.S. Postal Service Office of Inspector General                                                  April 27, 2012
State of the Mail                                                                             RARC-WP-12-010


Periodicals

Periodicals includes magazines, newspapers, and other publications65 that are issued at
regular, specified intervals. The primary purpose of this mail is to transmit information.
Periodicals has educational, cultural, scientific, and informational value. It is a preferred
product for the Postal Service with a service standard of one to seven days. It may be
entered in bulk and shares similar characteristics to workshared mail.

Periodicals volume was 7.3 billion pieces, revenue was $1.9 billion, and contribution
was negative $0.6 billion in FY 2010. This mail accounted for 4 percent of total volume
and 3 percent of total revenue.

Table A-5 shows that Periodicals had a contribution per piece of negative $0.08. This
equates to a contribution margin of negative 33 percent; hence, for every dollar of
revenue, this mail results in a net loss of 33 cents.

                            Table A-5: Periodicals – FY 2010 Unit Estimates

                                              Periodicals
                             Unit Revenue (UR)                       $     0.258
                             Unit Cost (UC)                          $     0.343
                             Unit Contribution (UR-UC)               $    (0.084)

                             Contribution Per Revenue Dollar $            (0.325)
                             Source: OIG Analysis


Two- and Three-Day Packages

Two- and Three-Day Packages consists of First-Class Mail parcels weighing less than
13 ounces and Priority Mail. Priority Mail accounts for nearly two-thirds of this mail
segment’s volume. This mail is used to deliver documents, merchandise, and goods. It
is a premium product for the Postal Service with a service standard of one to three days
for which the Postal Service provides preferential handling and expedited delivery, but
does not guarantee service. The Postal Service offers Saturday and residential delivery
at no additional cost and with no fuel surcharges.

Two- and Three-Day Packages volume was 1.1 billion pieces, revenue was $5.7 billion,
and contribution was $1.4 billion in FY 2010. This mail accounted for 1 percent of total
volume, 9 percent of total revenue, and 6 percent of contribution.

Table A-6 shows that Two- and Three-Day Packages had a contribution per piece of
$1.02. This is a relatively high unit contribution and for every dollar of revenue, this mail
contributes 21 cents in contribution. This is the sixth highest margin of the eight mail
segments.

65
   According to OIG analysis of HDS data, magazines account for 78 percent and newspapers account for 22 percent
of Periodicals received by households. HDS 2010, p. 49 (Figure 6.2).


                                                       29
U.S. Postal Service Office of Inspector General                                                      April 27, 2012
State of the Mail                                                                                 RARC-WP-12-010

                      Table A-6: Two- & Three-Day Packages – FY 2010 Unit Estimates

                                       Two- & Three-Day Packages
                              Unit Revenue (UR)             $                     4.905
                              Unit Cost (UC)                $                     3.887
                              Unit Contribution (UR-UC)     $                     1.018

                              Contribution Per Revenue Dollar $                   0.208
                              Source: OIG Analysis


Overnight Flats and Packages

Overnight Flats and Packages consists of Express Mail which is used to deliver time-
sensitive letters, documents, merchandise, and goods. This is a premium product for
the Postal Service with a service standard of one to two days and guaranteed delivery
either overnight or on the second day to most domestic addresses. The Postal Service
offers Saturday and residential delivery at no additional cost, with no fuel surcharges,
and free tracking information.

Overnight Flats and Packages volume was 43 million pieces, revenue was $0.8 billion,
and contribution was $0.3 billion in FY 2010. This mail accounted for less than one third
of one percent of total volume, 1.4 percent of total revenue, and 1.3 percent of total
contribution.

Table A-7 shows that Overnight Flats and Packages had a contribution per piece of
$7.81. This is a relatively high unit contribution and equates to a contribution margin of
40 percent. This is the third highest margin of the eight mail segments.

                      Table A-7: Overnight Flats & Packages – FY 2010 Unit Estimates

                                         Overnight Flats & Packages
                                 Unit Revenue (UR)              $ 19.456
                                 Unit Cost (UC)                 $ 11.646
                                 Unit Profitability (UR-UC)     $   7.810

                                 Profit Per Revenue Dollar               $     0.401
                                 Source: OIG Analysis


Ground Packages

Ground Packages includes Standard parcels, Parcel Select, and Package Services.66
This mail is used to deliver small and large packages including product samples,
merchandise, goods, books, and sound recordings. The service standard for Ground
Packages products is 2 to 8 days with the exception of Standard parcels, for which the

66
     Package Services includes Parcel Post, Bound Printed Matter, Media Mail, and Library Mail.


                                                           30
U.S. Postal Service Office of Inspector General                                  April 27, 2012
State of the Mail                                                             RARC-WP-12-010


service standard is 3 to 10 days. The Postal Service offers Saturday and residential
delivery at no additional cost and with no fuel surcharges.

Ground Packages volume was 1.3 billion pieces, revenue was $2.1 billion, and
contribution was negative $38 million in FY 2010. This mail accounted for 1 percent of
total volume and 3 percent of total revenue.

Table A-8 shows that Ground Packages had a contribution per piece of negative $0.28.
This equates to a contribution margin of negative 18 percent; for every dollar of
revenue, this mail results in a net loss of 1.8 cents.

                        Table A-8: Ground Packages – FY 2010 Unit Estimates

                                          Ground Packages
                             Unit Revenue (UR)            $       1.565
                             Unit Cost (UC)               $       1.840
                             Unit Contribution (UR-UC)    $      (0.275)

                             Contribution Per Revenue Dollar $   (0.175)
                             Source: OIG Analysis




                                                    31
U.S. Postal Service Office of Inspector General                                April 27, 2012
State of the Mail                                                           RARC-WP-12-010




Appendix B               Outlook Assessments by Mail Segment

To compute the overall outlook assessment per mail segment, we assembled each mail
segment’s Strengths, Weaknesses, Opportunities and Threats (SWOT) factors, and
also rated each mail segment along the following three outlook evaluation factors as
challenged, neutral and promising.

       Threat – Are there existing or emerging threats to the mail segment?

       Lack of Countermeasures – Can the Postal Service counter or avoid the threats?

       Impact – What are the potential financial impacts of these threats on the Postal
        Service? How likely are they to occur?

We combined our professional judgment of these factors to compute the overall outlook
assessment again as challenged, neutral and promising. There is no set formula or
causal relationship between the magnitude of the three factors and the overall outlook
assessment.

Challenged Outlook – This mail segment, color coded red, has a challenged outlook as
its fundamentals are trending negative. The mail segment faces major challenges and
hurdles. Future impacts on the Postal Service are likely profound. The only solution may
be a fundamental change in business strategy.

Neutral Outlook – This mail segment, color coded yellow, faces equal challenges and
opportunities. Future impacts on the Postal Service may be negative or positive. Active
and smart management of the mail segment is key to counter threats and exploit
opportunities.

Promising Outlook – This mail segment, color coded green, has a promising outlook
due to its strong fundamentals. The mail segment may face threats, but also may enjoy
opportunities. Future impacts on the Postal Service are potentially positive.
Management may leverage strengths to lead to positive future results.

Presented here are the SWOT and outlook factors by mail segment.




                                                  32
U.S. Postal Service Office of Inspector General                                       April 27, 2012
State of the Mail                                                                  RARC-WP-12-010


First-Class Mail Correspondence

The Postal Service classifies the First-Class Mail correspondence segment as market
dominant and a subset of Mailing Services.

                    Table B-1: First-Class Mail Correspondence – SWOT Factors

          Strengths & Opportunities                            Weaknesses & Threats
    Unique characteristics of emotional                 Electronic diversion
    content mail
                                                        Environmental movements
  Source: OIG Analysis


                    Table B-2: First-Class Mail Correspondence – Outlook Factors

                           Overall Outlook Assessment: Challenged
                                       Electronic substitutes are a current and growing
          Threat             High
                                         threat.
       Lack of                         Options to mitigate or avoid threats are limited.
                             High
   Countermeasures
                                             Important mail segment
                                                 o 14.6 billion pieces, $6.5 billion in
                                                    revenue, and $2.5 billion in contribution
                                                    in FY 2010.
          Impact             Medium              o Correspondence mail contributes to the
                                                    mail moment and keeps the mailbox
                                                    valuable.
                                                 o Every revenue dollar lost results in a 39
                                                    cents loss in contribution.
  Source: OIG Analysis




                                                   33
U.S. Postal Service Office of Inspector General                                          April 27, 2012
State of the Mail                                                                     RARC-WP-12-010




First-Class Mail Transactions

The Postal Service classifies the First-Class Mail transactions mail segment as market
dominant and a subset of Mailing Services.

                         Table B-3: First-Class Mail Transactions – SWOT Factors

          Strengths & Opportunities                             Weaknesses & Threats
    Value of hard copy records                           Electronic bill presentation and
                                                         payment (EBPP)
    Value-added services — information rich
    mail stream
  Source: OIG Analysis



                      Table B-4: First-Class Mail Transactions – Outlook Factors

                            Overall Outlook Assessment: Challenged
                                        EBPP is a formidable and existing threat.
          Threat              High
                                        This mail is sensitive to economic downturns.
       Lack of                          Options to mitigate or avoid threats are limited.
                              High
   Countermeasures
                                             Critical mail segment
                                                  o 35.9 billion pieces, $15.2 billion in
                                                      revenue, and $7.9 billion in contribution
                                                      in FY 2010
          Impact                High
                                                  o Every dollar loss in revenue loses 52
                                                      cents in contribution. Difficult for other
                                                      mail segments to replace lost
                                                      contribution.
  Source: OIG Analysis




                                                    34
 U.S. Postal Service Office of Inspector General                                       April 27, 2012
 State of the Mail                                                                  RARC-WP-12-010


 First-Class Mail Advertising

 The Postal Service classifies First-Class Mail advertising as market dominant and a
 subset of its Mailing Services.

                        Table B-5: First-Class Mail Advertising – SWOT Factors

         Strengths & Opportunities                               Weaknesses & Threats
 High response rates                                    Alternative advertising media including
                                                        Internet
 Targeted advertising                                   Diversion to Standard mail and lower
                                                        contribution per piece
 Complementary effect from multichannel                 Do-Not-Mail initiatives
 marketing
 Value-added services — information rich                Negative economic trends
 mail stream
 Annoyance with email spam and laws
 against spam (CANSPAM)
Source: OIG Analysis


                       Table B-6: First-Class Mail Advertising – Outlook Factors

                           Overall Outlook Assessment: Promising
                                    Unique combination of response rates, costs, and
                                      average order values offers potent alternative to
                                      competing advertising channels.
        Threat            Medium  Standard mail advertising may be a low cost
                                      alternative.
                                    Potential Do-Not-Mail registries affect subset of mail.
                                    This mail is sensitive to economic downturns.
                                    Opportunity to build upon complementary effect of
     Lack of
                           Low        multichannel marketing.
 Countermeasures
                                    Consumers value direct mail.
                                    Important mail segment
                                          o 6.2 billion pieces, $2.1 billion in revenue, and
                                             $1.4 billion in contribution in FY 2010
        Impact            Medium
                                          o Every dollar loss in revenue loses 66 cents in
                                             contribution; other mail segments may only
                                             replace portion of lost contribution.
Source: OIG Analysis




                                                   35
U.S. Postal Service Office of Inspector General                                    April 27, 2012
State of the Mail                                                               RARC-WP-12-010


Standard Mail Advertising

The Postal Service classifies Standard advertising as market dominant and a subset of
its Mailing Services.

                           Table B-7: Standard Advertising – SWOT Factors

           Strengths & Opportunities                          Weaknesses & Threats
    High response rates                                Negative economic trends
    Targeted advertising (e.g., geographic             Alternative advertising media
    and demographic)                                   including Internet
    Complementary effect from multichannel             Do-Not-Mail initiatives
    marketing
    Value-added services — information rich
    mail stream
    Annoyance with email spam and laws
    against span (CANSPAM)
  Source: OIG Analysis



                          Table B-8: Standard Advertising – Outlook Factors

                   Overall Outlook Assessment: Promising
                              Unique combination of response rates, costs,
                                and average order values offers potent
                                alternative to competing advertising channels.
        Threat     Medium
                              Potential Do-Not-Mail registries affect subset of
                                mail.
                              This mail is sensitive to economic downturns.
                              Opportunity to build upon complementary effect
       Lack of
                     Low        of multichannel marketing.
   Countermeasures
                              Consumers value direct mail.
                              Critical mail segment
                                    o 81.8 billion pieces, $16.7 billion in
                                       revenue, and $5.6 billion in contribution
       Impact        High
                                       in FY 2010.
                                    o Every dollar loss in revenue loses 34
                                       cents in contribution.
  Source: OIG Analysis




                                                  36
U.S. Postal Service Office of Inspector General                                        April 27, 2012
State of the Mail                                                                   RARC-WP-12-010


Periodicals

The Postal Service classifies Periodicals as market dominant and a subset of its Mailing
Services.

                                 Table B-9: Periodicals – SWOT Factors

          Strengths & Opportunities                             Weaknesses & Threats
    High value of content                                Increasing competition from the
                                                         Internet
    Anchor of the mail box and the mail                  Negative advertising expenditures
    moment                                               trends
                                                         Demographic trends of reading
                                                         decline
  Source: OIG Analysis



                               Table B-10: Periodicals – Outlook Factors

                           Overall Outlook Assessment: Challenged
          Threat             High      The Internet is a formidable and existing threat.
       Lack of                         Options to mitigate or avoid threats are limited.
                             High
   Countermeasures
                                             Important mail segment
                                                 o 7.3 billion pieces, $1.9 billion in revenue,
                                                    and $611 million loss in FY 2010.
          Impact             Medium              o Average contribution margin is negative
                                                    33 percent.
                                             Volume declines affect other mail segments
                                              and how customers value the mail moment.
  Source: OIG Analysis




                                                    37
U.S. Postal Service Office of Inspector General                                        April 27, 2012
State of the Mail                                                                   RARC-WP-12-010


Two- and Three-Day Packages

The Postal Service classifies First-Class Mail and Priority Mail parcels as market
dominant and a subset of its Mailing Services.

                         Table B-11: Two- & Three-Day Packages – SWOT Factors

          Strengths & Opportunities                            Weaknesses & Threats
    Competitive prices                                   Competitors entering market
    Expansion into higher revenue, heavier               No guaranteed service standard
    packages
    Valued-added services — information                  Limited value-added services
    rich mail stream
  Source: OIG Analysis



                     Table B-12: Two- & Three-Day Packages – Outlook Factors

                   Overall Outlook Assessment: Promising
                              Low-price offerings offset the threat from new
        Threat       Low
                                competition.
       Lack of                Commanding market share offers economies of
                     Low        scale.
   Countermeasures
                                             Important mail segment
                                                 o 1.1 billion pieces, $5.7 billion in revenue,
                                                    and $1.4 billion in contribution in FY
          Impact              Medium
                                                    2010.
                                                 o Every dollar loss in revenue loses 21
                                                    cents in contribution.
  Source: OIG Analysis




                                                    38
U.S. Postal Service Office of Inspector General                                      April 27, 2012
State of the Mail                                                                 RARC-WP-12-010


Overnight Flats and Packages

The Postal Service classifies Overnight Flats and Packages (includes Express Mail) as
a competitive product and a subset of its Shipping Services.

                     Table B-13: Overnight Flats & Packages – SWOT Factors

          Strengths & Opportunities                           Weaknesses & Threats
    Guaranteed service standard                        Entrenched competition
    Niche markets — government                         Minor market share
    Valued-added services — information                Limited value-added services
    rich mail stream
                                                       Shrinking market, especially in a down
                                                       economy
                                                       Electronic diversion
  Source: OIG Analysis



                      Table B-14: Overnight Flats & Packages – Outlook Factors

                             Overall Outlook Assessment: Neutral
                                       Entrenched competition has advantages and is
          Threat             Medium
                                         a strong threat, but already dominates market.
                                       Minor market share offers competitive
       Lack of
                             Medium      disadvantages.
   Countermeasures
                                       Low brand attractiveness presents challenge.
                                       Small mail segment
                                             o 43 million pieces, $828 million in
                                                revenue, and $332 million in contribution
          Impact              Low
                                                in FY 2010.
                                             o Every dollar loss in revenue loses 40
                                                cents in contribution.
  Source: OIG Analysis




                                                  39
U.S. Postal Service Office of Inspector General                                     April 27, 2012
State of the Mail                                                                RARC-WP-12-010


Ground Packages

The Postal Service classifies Standard parcels, single-piece Parcel Post, Bound Printed
Matter, Media Mail, and Library Mail as market dominant and a subset of its Mailing
Services. It considers Parcel Select as a competitive product and a subset of its
Shipping Services.
                            Table B-15: Ground Packages – SWOT Factors

           Strengths & Opportunities                         Weaknesses & Threats
    Competitive prices                                 Entrenched competition
    Expansion into higher revenue, heavier             No guaranteed service standard
    packages
    Long distance shopping                             Limited value-added services
    First and last mile expertise
    Valued-added services — information
    rich mail stream
  Source: OIG Analysis


                           Table B-16: Ground Packages – Outlook Factors

                             Overall Outlook Assessment: Neutral
                                       Entrenched and growing competition has
          Threat             Medium      advantages and is a strong threat, and
                                         dominates heavier weight packages.
                                       Growth in long distance shopping complements
       Lack of
                              Low        ground packages.
   Countermeasures
                                       First and last mile offers advantages.
                                       Moderate mail segment
                                            o 1.3 billion pieces, $2.1 billion in revenue,
          Impact             Medium            and $368 million loss in FY 2010.
                                            o Average contribution margin is negative
                                               18 percent.
  Source: OIG Analysis




                                                  40
